FR833282333_PAYPAL CREDIT
TC PDF CLIENT MANAGED
6/2021

RATES AND FEES TABLE
PAYPAL CREDIT ACCOUNT AGREEMENT
PRICING INFORMATION
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

The APR for purchases is the prime rate plus 20.74%.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

The APR for cash advances is the prime rate plus 20.74%.
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 23 days after the close of each billing cycle. We will not charge
you any interest on non-promotional transactions if you pay your entire balance by the
due date each month. We will begin charging interest on promotional purchases on the
purchase date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.00.

Fees
Annual Fee

None

Penalty Fees
l
l

Late Payment
Returned Payment

Up to $40.
Up to $29.

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases and cash
advances). See the Account Agreement for more details.
Federal law requires the Lender to obtain, verify, and record information that identifies you when you open an
account. The Lender will use your name, address, date of birth, and other information for this purpose.
TYPES OF TRANSACTIONS
You may use your account to make purchases (standard and promotional) by choosing PayPal Credit when you make a purchase from a merchant at a website,
by telephone, or at another authorized location. You may also use your account to get cash advances. These types of transactions are further explained below.

NON-PROMOTIONAL TRANSACTIONS
Standard Purchases

Standard purchases are non-promotional purchases or are purchases that are not otherwise subject to
promotional repayment terms and/or APRs, including but not limited to Send Money transactions made in
connection with a purchase of goods or services.

Cash Advances

Cash advances are extensions of credit made on the account when you use Send Money to transfer money to
friends or family members (not to or from a business) without a purchase. You may not use the cash advance
feature to Send Money to yourself. The cost of the cash advance may include both the amount sent and any fee
charged by and paid to PayPal, Inc. for facilitating a Send Money transaction. We have the right to decline cash
advance transactions for any reason permitted by applicable law, including if fraudulent or high-risk behavior is
suspected.

At times, we may offer promotional financing for certain transactions, and the terms of this Agreement apply to any promotional financing. Regular account
terms apply to non-promotional purchases and, after the promotion ends, to promotional purchases. Below is a description of certain promotional financing
that may be offered on purchases. These promotional offers may not be available at all times for all purchases. Please see any promotional advertising or other
disclosures provided to you for the full terms of any promotional offer. Offers may be subject to credit approval.

1

PROMOTIONAL PURCHASES - DEFERRED INTEREST PURCHASES
No Interest if Paid in
Full in 6 Months

For each deferred interest purchase, if the deferred interest purchase balance is not paid in full within the
promotional period, interest will be imposed from the date of purchase at the variable purchase APR that applies
to your account when the deferred interest purchase is made.
At the time your account is opened, the variable purchase APR is 23.99%.
Your purchase APR will vary with the market based on the prime rate.

No Interest if Paid in
Full in 12 Months

If you pay the balance on a deferred interest purchase in full within the applicable promotional period, we will not
charge any interest for that purchase. Any remaining balance at the end of the promotional period will be charged
interest at the variable purchase APR that applies to your account from the date of the purchase. Minimum
monthly payments are required.

PROMOTIONAL PURCHASES - EASY PAYMENTS PURCHASES
Easy Payments Purchases

For each qualifying Easy Payments purchase, either interest will be assessed on the purchase at a reduced APR
(which may be referred to as a Financed Easy Payments purchase) or no interest will be assessed. A monthly
payment will be due as described in the Minimum Payment Calculation section. We may offer this as the only
method you can use to make a purchase from a merchant, or as an option to the standard purchase and/or
deferred interest purchase method. Easy Payments purchases will be subject to the terms offered at the time
of the transaction by the merchant.

RATES, FEES AND PAYMENT INFORMATION
RATES
You agree to pay interest on the outstanding balance of this account until paid in full, as applicable. Interest may be calculated differently depending on the
type of transaction.

HOW INTEREST IS CALCULATED
Your Interest Rate

We use a daily rate to calculate the interest on the balance on your account each day. The daily rate is the
applicable APR times 1/365. Interest will be imposed in amounts or at rates not in excess of those permitted by
applicable law. The APR for purchases and cash advances is the prime rate plus 20.74%. As of April 1, 2020,
the daily rate for purchases and cash advances is .0657260% (APR 23.99%). However, if we have disclosed a
promotional rate at the time we made a promotional offer, we will calculate interest on balances subject to that
promotional offer using the applicable promotional financing rate.
Daily Rates May Vary. The APRs and the daily rates on your account vary with the market based on the prime
rate. The prime rate for a billing cycle is the highest bank prime loan rate published in The Wall Street Journal in
its Money Rates section on the last business day of the calendar month preceding the first day of the billing cycle.
If the prime rate increases, the daily rates and APRs will increase. As a result, interest, your total minimum payment
and the number of payments it would take you to pay off your account balance may increase. We apply any
change in rates because of a prime rate change to your entire account balance. A change in the prime rate will
take effect on the first day of the first billing cycle after the change. We may select a new interest rate index if
the prime rate is not available.

When We
Charge Interest

Generally, we charge interest on your purchases and cash advances from the date you make the purchase or
cash advance until you pay the purchase or cash advance in full. See exceptions below.
l

We will not charge you interest during a billing cycle on any non-promotional transactions if:
1. You had no balance at the start of the billing cycle; OR
2. You had a balance at the start of the billing cycle and you paid that balance in full by the due date in that
billing cycle.

l

We charge interest on promotional purchases and their related fees from the date you make the promotional
purchase, where applicable. If you pay the balance on a deferred interest purchase in full within the applicable
promotional period, we will not charge any interest for that purchase.

l

We will credit, as of the start of the billing cycle, any payment you make by the due date that we allocate to
non-promotional transactions if:
1. You had no balance at the start of the previous billing cycle; OR
2. You had a balance at the start of the previous billing cycle and you paid that balance in full by the due
date in the previous billing cycle.

2

How We Calculate Interest

We calculate interest on your account for each billing cycle separately for each balance type. A separate average
daily balance is calculated for the following balance types, as applicable: standard purchases, cash advances
and promotional purchases. See below for how this works.
1. How to get the average daily balance: We take the starting balance each day, including billed interest
and billed fees, add the daily interest amount from the previous day, add any new charges and
adjustments posted that day and subtract any payments or credits (treating any net credit balance as
zero). This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and
divide the total by the number of days in the billing cycle. The result is the average daily balance. Late
payment fees, returned payment fees and debt cancellation fees are treated as standard purchases.
2. How to get the interest amount: We multiply the average daily balance by the applicable daily rate to get
the daily interest amount. Then we multiply the daily interest amount by the number of days in the billing
cycle to determine the interest charges. This gives us the interest charges for each balance type. We
calculate the interest charge for each balance type.
3. How to get the interest charge for the billing cycle: We add all the interest charges for all the balance
types, to get the interest for the account.

Minimum Interest Charge

We charge a minimum of $2.00 of interest in any billing cycle in which you owe interest on non-promotional
transactions.
FEES

You agree to pay the following fees, as applicable.
FEES
Late Payment Fee

We will charge this fee for each billing cycle in which we do not receive the minimum payment due on your account
on the due date in accordance with the requirements set forth on each billing statement. This fee is equal to:
1. $29, if you have paid your minimum payment due by the due date in each of the prior six billing cycles;
OR
2. $40, if you have failed to pay your minimum payment due by the due date in any one or more of the prior
six billing cycles.
The late payment fee will never be more than the total minimum payment that was due.

Returned Payment Fee

We will charge this fee, which is sometimes referred to as a “return check fee” or “non-sufficient funds fee,” if
any check, other instrument, or electronic payment authorization you provide us in payment on your account,
is not honored upon first presentment for any reason, including if the payment is returned by drawee for “not
sufficient funds.” We will not charge this fee if the check, instrument or electronic authorization is later honored.
This fee is equal to $29; however, it will never be more than the minimum payment due immediately prior to the
date on which the payment is returned.

MINIMUM PAYMENT CALCULATION
Your minimum payment is calculated as follows.
The sum of:
a. For the new balance shown on your billing statement (excluding any Easy Payments purchase balance), the greater of:
(i) $29, or $40 if you have failed to pay the minimum payment due by the due date in any one or more of the prior six billing cycles; or
(ii) The sum of 1% of such new balance (rounded down to the nearest whole dollar), plus interest (excluding any accrued interest on a deferred interest
purchase billed in that billing cycle), late payment fees and returned payment fees charged in the current billing cycle (rounded down to the nearest whole
dollar); PLUS
b. Any past due amounts; PLUS
c. Any Easy Payments purchase monthly payment. The monthly payment amount for an Easy Payments purchase will be equal to the Easy Payments
purchase amount plus applicable interest divided by the number of months in the applicable promotional period.

Your minimum payment will never be more than your new balance. There is no payment due for a “No Payments + No Interest if paid in full purchase” prior to
its expiration date.

3

STANDARD PROVISIONS
ABOUT THE CREDIT CARD ACCOUNT AGREEMENT
This Agreement

This is an Agreement between you and Synchrony Bank, 170 Election Road, Suite 125, Draper, UT 84020, for
your PayPal Credit open-end (revolving) credit card account that is the subject of this Agreement. By opening
or using your account, you agree to the terms of the entire Agreement, and you make the promises it contains
by either applying for or accepting an account or making a purchase using PayPal Credit after receipt of this
Agreement. The entire Agreement includes this document, including any amendment or addendum thereto, and
the application you submitted in connection with the account. These documents replace any other agreement
relating to your account that you or we made earlier or at the same time.

Parties To
This Agreement

The person who applied for, opened and/or uses the account may be referred to as “you” or “your.” The Lender,
Synchrony Bank, may be referred to as “we,” “us” or “our.” PayPal, Inc., located in San Jose, California, is a
payment service provider that consumers and merchants use to make payments to and accept payments from
third parties, and is another entity contemplated by this Agreement.

Changes To This Agreement

We may change, add or delete terms of this Agreement, including interest rates, fees and charges.

Promotional Financing Offers

The terms of this Agreement apply to any promotional financing offer. However, any promotional financing terms
that are different than the terms in this Agreement will be explained on promotional advertising or other disclosures
provided to you.

HOW TO USE YOUR ACCOUNT
Use Of Your Account

You may use your account only for lawful personal, family or household purposes. You may use your account for
the types of transactions explained in this Agreement. You may not use your account to pay amounts you owe
us on this account or any other account you have with us. We may charge your account for purchases and cash
advances you make, and you authorize us to charge this account for the cost of any purchase or cash advance
you or anyone to whom you have given permission to use this account make, using PayPal Credit.

You Promise To Pay

You promise to pay us for all amounts owed to us under this Agreement.

Your Responsibility

You may not allow anyone else to use your account. If you do, you will be responsible for paying for all charges
resulting from their transactions.

Transaction Limits

To prevent fraud, we may limit the number or dollar amount of any type of transactions you can make in any
particular amount of time. We also may decline any particular charge on your account for any reason.

Credit Limit

You will be assigned a credit limit (which may also be referred to as a credit line), which is the dollar amount
of credit available for you to borrow on your account, of at least $250, that we may increase or decrease from
time to time. If we approve a transaction that makes you go over your credit limit, we do not give up any rights
under this Agreement and we do not treat it as an increase in your credit limit. However, we may, from time to
time, increase your credit limit, including after approval of such a transaction. If you seek to open a new account
to make a purchase, you agree that if we identify your existing account, your purchase will be charged to your
existing account and a new account will not be opened.

HOW AND WHEN TO MAKE PAYMENTS
When Payments Are Due

You must pay at least the minimum payment due on your account by the due date of each billing cycle in
accordance with the requirements set forth on each billing statement. Payments received after the due date will
be credited as of the next day. You may at any time pay, in whole or in part, the total unpaid balance without
any additional charge for prepayment. If you have a balance subject to interest, earlier payment may reduce the
amount of interest you will pay. We may delay making credit available on your account in the amount of your
payment even though we will credit your payment when we receive it.

Payment Options

You can pay by mail, online or by phone. Your payment must be made in U.S. dollars by physical or electronic
check, money order or a similar instrument from a bank located in the United States.

How To Make A Payment

You must follow the instructions for making payments provided on your billing statement. If you do not, credit
of your payment may be delayed up to five days. Your billing statement also explains how information on your
check is used.

Payment Allocation

We will use each payment in the amount of the minimum payment due or less, first to pay billed monthly plan
payments on any Easy Payments purchases, then billed interest, then billed fees, then the principal balance, and
then any other amounts due. However, if you have a balance on a deferred interest purchase, during both the
billing cycle preceding its expiration date and the billing cycle in which such deferred interest purchase expires, we
may use the payment, after the amount to pay billed monthly plan payments on any Easy Payments purchases,
to pay the balance on such deferred interest purchase(s).
We will use any amount in excess of the minimum payment due to pay the balances with the highest interest rate,
then the next highest interest rate, and so forth. However, during both the billing cycle preceding the expiration
date and the billing cycle in which a deferred interest purchase expires, we may use payments first to pay the
balance on such deferred interest purchase(s).

4

INFORMATION ABOUT YOU
Using And Sharing
Your Information

When you applied for an account, you gave us and PayPal, Inc. information about yourself that we could share with
each other. PayPal, Inc. will use the information in connection with the credit program and for things like creating
and updating its records and offering you special benefits. By making a purchase or requesting a cash advance,
you authorize us to share your personal information (including email address) in order to verify your identity, make
a credit decision, complete your transaction, service your account, and for any other lawful purpose as set forth in
the privacy policy for your account. You authorize merchants you transact with to share your personal information,
including email address, with the Lender to use it for any lawful purpose.

Address/Phone Change

You represent that any phone number that you provide to us belongs to you and/or that you are authorized to
provide that number. You also agree to tell us right away if you change your address (mailing or email) or any
phone number.

Consent To
Communications

You consent to us and PayPal, Inc., as well as any other owner or servicer of your account, contacting you through
any channel of communication and for any purpose, as permitted by applicable law. For informational, servicing,
fraud or collection related communications, you agree that we may use the phone numbers that you provide to us
to contact your cellular phone or wireless device with text messages, artificial or prerecorded voice calls, and calls
made by an automatic telephone dialing system. Text frequency may vary and may be recurring. This consent
applies even if you are charged for the call under your plan. You are responsible for any charges that may be
billed to you by your communications carrier when we contact you. Message and data rates may vary. We and
any carrier are not liable for delayed or undelivered messages.

Telephone Monitoring

For quality control, you allow us and/or PayPal, Inc. to listen to and/or record telephone calls between you and
us or PayPal, Inc.

Emails

You consent to us and/or PayPal, Inc. emailing you for any lawful purpose, including marketing.

IMPORTANT INFORMATION ABOUT YOUR ACCOUNT
Closing
Your Account

You may close your account at any time by sending a letter to the address shown on your billing statement or
calling customer service. We may close your account at any time, for any reason. If your account is closed, you
must stop using it. You must still pay the full amount you owe and this Agreement will remain in effect until you do.

Collection Costs

If we ask an attorney who is not our salaried employee to collect your account, we may charge you our collection
costs. These include court costs and reasonable attorneys’ fees.

Credit
Bureau Reporting

We may report information about your account to credit bureaus. Late payments, missed payments, or other
defaults on your account may be shown in your credit report. Tell us if you think we reported wrong information
about you to a credit bureau. Write to us at P.O. Box 965005, Orlando, FL 32896-5005. Tell us what information
is wrong and why you think it is wrong. If you have a copy of the credit report that includes the wrong information,
send us a copy.

Default

You are in default if you make a late payment, do not follow any other term of this Agreement or become bankrupt
or insolvent. If you default or upon your death, we may (a) request payment of the full amount due right away, (b)
take legal action to collect the amounts owed, and/or (c) take any other action allowed.

Disputed Amounts

The billing rights summary in this Agreement describes what to do if you think there is a mistake on
your bill. If you send us correspondence about a disputed amount or payment, you must send it to the
address for billing inquiries. We do not give up any rights under this Agreement if we accept a payment
marked “payment in full” or given with any other conditions or limitations.

Unauthorized Use

If your account is used without your consent, call us immediately at 1-844-373-4961. You will not be liable for
unauthorized use on your account, but you will be responsible for all use by anyone you allow to use your account.

IMPORTANT INFORMATION ABOUT THIS AGREEMENT
Assignment

Enforceability

We may sell, assign or transfer any or all of our rights or duties under this Agreement or your account, including
our rights to payments. We do not have to give you prior notice of such action. Any person, company, or bank to
whom we assign this Agreement shall be entitled to all of our rights under this Agreement. None of your rights or
obligations shall be affected by such assignment. You may not sell, assign or transfer any of your rights or duties
under this Agreement or your account.
If any part of this Agreement is found to be void or unenforceable, all other parts of this Agreement will still apply.

Governing Law

Except as provided in the Resolving a Dispute with Arbitration section, this Agreement and your account are
governed by federal law and, to the extent state law applies, the laws of Utah without regard to its conflicts of
law principles. This Agreement has been accepted by us in Utah.

Waiver

We may give up some of our rights under this Agreement. If we give up any of our rights in one situation, we do
not give up the same right in another situation.

5

RESOLVING A DISPUTE WITH ARBITRATION
PLEASE READ THIS SECTION CAREFULLY. IF YOU DO NOT REJECT IT, THIS SECTION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES
BETWEEN YOU AND US WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT: (1) NEITHER A COURT NOR A JURY WILL
RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS
INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED.
1. CLAIMS AND PARTIES. If either you or we make a demand for arbitration, you and we must arbitrate any dispute or claim between you (including any
other user of your account), and us (including our parents, affiliates, agents, employees, officers, and assignees, and PayPal, Inc. and its affiliates) that
directly or indirectly arises from or relates to your account, your account Agreement or our relationship, except as noted below. In addition, any assignee,
agent, or service provider of ours that collects amounts due on your account are intended beneficiaries of this Arbitration section and may enforce it in
full (notwithstanding any state law to the contrary).
2. This Arbitration section broadly covers claims based upon contract, tort, consumer rights, fraud and other intentional torts, negligence, constitution, statute,
regulation, ordinance, common law and equity and claims for money damages and injunctive or declaratory relief, even if they arose before this section
took effect. You may not sell, assign or transfer a claim.
3. Examples of claims subject to arbitration are disputes about an account transaction, fees, charges or interest, the events leading up to the Agreement (such
as any disclosures, advertisements, promotions or oral or written statements, warranties or representations made by us), an application for or denial of
credit, any product or service provided by us or third parties in connection with the Agreement, credit reporting, benefit programs related to your account
including any reward program, the collection of amounts due by our assignees, service providers, or agents and the manner of collection.
4. However, we will not require you to arbitrate any individual case in small claims court or your state’s equivalent court, so long as it remains an individual
case in that court. Also, even if all parties have opted to litigate a claim in court, you or we may elect arbitration with respect to any claim made by a new
party or any claim later asserted by a party in any related or unrelated lawsuit, including modifying an individual claim to assert a class, representative or
multi-party claim. Arbitration may be requested at any time, even where there is a pending lawsuit, unless a trial has begun, or a final judgment entered.
5. Only a court will decide disputes about the validity, enforceability, coverage or scope of this Arbitration section or any part thereof. However, any dispute
that concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide.
6. NO CLASS ACTIONS. IF EITHER YOU OR WE ELECT TO ARBITRATE A CLAIM, NEITHER YOU NOR WE WILL HAVE THE RIGHT (A) TO PARTICIPATE
IN A CLASS ACTION, PRIVATE ATTORNEY GENERAL ACTION OR OTHER REPRESENTATIVE ACTION IN COURT OR IN ARBITRATION, EITHER AS
A CLASS REPRESENTATIVE OR CLASS MEMBER, OR (B) TO JOIN OR CONSOLIDATE CLAIMS WITH CLAIMS OF ANY OTHER PERSONS EXCEPT
ACCOUNTHOLDERS ON YOUR ACCOUNT. THUS, YOU MAY NOT BRING CLAIMS AGAINST US ON BEHALF OF ANY ACCOUNTHOLDER WHO IS
NOT AN ACCOUNTHOLDER ON YOUR ACCOUNT, AND YOU AGREE THAT ONLY ACCOUNTHOLDERS ON YOUR ACCOUNT MAY BE JOINED IN A
SINGLE ARBITRATION WITH ANY CLAIM YOU HAVE.
7. PROCEDURES. The party who wants to arbitrate must notify the other party in writing. This notice can be given after the beginning of a lawsuit or in
papers filed in the lawsuit. Otherwise, your notice must be sent to Synchrony Bank, Legal Operation, P.O. Box 29110, Shawnee Mission, KS 66201-5320,
ATTN: ARBITRATION DEMAND. The party seeking arbitration must select either the American Arbitration Association (AAA), 120 Broadway, Floor 21, New
York, NY 10271, www.adr.org, or JAMS, 620 Eighth Avenue, 34th Floor, New York, NY 10018, www.jamsadr.com, to administer the arbitration. If neither
administrator can handle the dispute, a court with jurisdiction will appoint an arbitrator.
8. The arbitration administrator will appoint the arbitrator and will tell the parties what to do next. The arbitrator must be a lawyer with at least ten years of
legal experience. The arbitrator must apply the same law, consistent with the Federal Arbitration Act (FAA), that would apply to an individual action in court,
but may use different procedural rules. The arbitrator will apply the same statutes of limitation and privileges that a court would apply if the matter were
pending in court.
9. The arbitrator may award any damages or other relief or remedies that would apply under applicable law to an individual action brought in court, including,
without limitation, punitive damages (governed by the Constitutional standards employed by the courts) and injunctive, equitable and declaratory relief (but
only in favor of the individual party seeking relief and only to the extent necessary to provide relief warranted by that party’s individual claim). The parties
will bear the fees and costs of their attorneys, witnesses and experts. However, the arbitrator will have the authority to award fees and costs of attorneys,
witnesses and experts to the extent permitted by the Agreement, the administrator’s rules or applicable law.
10. The arbitration will take place by phone or at a location reasonably convenient to you. If you ask, we will pay all the fees the administrator or arbitrator
charges if you cannot obtain a waiver of fees from the administrator and are acting in good faith. We will always pay arbitration costs required by the
administrator’s rules or that are necessary for this Arbitration section to be enforced.
11. GOVERNING LAW. This Arbitration section is governed by the FAA. Utah law shall apply to the extent state law is relevant under the FAA, unless otherwise
stated herein. The arbitrator’s award will be final and binding, except for any appeal right under the FAA. Any court with jurisdiction may enter judgment
upon the arbitrator’s award. The arbitration award and any judgment confirming it will apply only to the specific case and cannot be used in any other
case except to enforce the award.
12. SURVIVAL. This Arbitration section shall survive the repayment of all amounts owed, the termination, cancellation or suspension of the Agreement or your
account or credit privileges, any legal proceeding, and any bankruptcy by you, to the extent consistent with applicable bankruptcy law. If this Arbitration
section conflicts with the applicable arbitration rules or the other provisions of the Agreement, this Arbitration section shall govern.
13. SEVERABILITY. If any portion of this Arbitration section is held to be invalid or unenforceable, the remaining portions shall nevertheless remain in force
with the following two exceptions. First, if a determination is made that the “No Class Actions” provision is unenforceable, and that determination is not
reversed on appeal, then this Arbitration section shall be void in its entirety. Second, if a court determines that a public injunctive relief claim may proceed
notwithstanding the “No Class Actions” provision, and that determination is not reversed on appeal, then the public injunctive relief claim will be decided
by a court, and any individual claims will be arbitrated. The parties will ask the court to stay the public injunctive relief claim until the other claims have
been finally concluded.
14. HOW TO REJECT ARBITRATION. You may reject this Arbitration section. If you do that, a court will resolve any dispute or claim. To reject this section,
send us a notice within 45 days after you open your account or we first provided you with your right to reject this section. The notice must include your name,
address, account number, and personal signature, and must be mailed to Synchrony Bank, P.O. Box 965012, Orlando, FL 32896-5012. This is the only
way you can reject this section. Rejecting this Arbitration section will not affect any other provision of the Agreement. It will also not affect any prior arbitration
agreement or dispute resolution provision between you and us, which will remain in full force and effect. If you don't reject this Arbitration section, it will be
effective as of the date of the Agreement and will supersede any prior arbitration agreement between you and us that would otherwise be applicable.

OTHER IMPORTANT INFORMATION
This section of the agreement includes state notices, billing rights summary and rewards terms (if applicable) and is not required to be provided as part of the
credit card agreement posted online or provided to the CFPB.

FR833282333_PAYPAL CREDIT
TC PDF CLIENT MANAGED
6/2021
6

